<html>
<title> - OPERATION ODYSSEY DAWN AND THE SITUATION IN LIBYA</title>
<body><pre>[Senate Hearing 112-162]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-162

           OPERATION ODYSSEY DAWN AND THE SITUATION IN LIBYA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

         Printed for the use of the Committee on Armed Services





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







        Available via the World Wide Web: http://www.fdsys.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-378 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)










                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

           Operation Odyssey Dawn and the Situation in Libya

                             march 31, 2011

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................     4
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....     7

                                 (iii)

 
           OPERATION ODYSSEY DAWN AND THE SITUATION IN LIBYA

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:14 p.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Webb, McCaskill, Udall, Hagan, Begich, Manchin, Shaheen, 
Gillibrand, Blumenthal, McCain, Inhofe, Sessions, Wicker, 
Brown, Portman, Ayotte, Collins, Graham, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; William G.P. Monahan, counsel; and 
Michael J. Noblet, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Christian D. Brose, professional staff member; 
and Michael J. Sistak, research assistant.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, and Hannah I. Lloyd.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon Peterson, assistant 
to Senator Webb; Tressa Guenov, assistant to Senator McCaskill; 
Casey Howard, assistant to Senator Udall; Roger Pena, assistant 
to Senator Hagan; Patrick Hayes, assistant to Senator Manchin; 
Chad Kreikemeier, assistant to Senator Shaheen; Elana Broitman, 
assistant to Senator Gillibrand; Anthony Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Joseph Lai, assistant to Senator Wicker; Brad Bowman, assistant 
to Senator Ayotte; Taylor Andreae, assistant to Senator Graham; 
and Joshua Hodges, assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody.
    This afternoon, the committee welcomes Secretary of Defense 
Robert Gates and Chairman of the Joint Chiefs of Staff Admiral 
Mike Mullen to our hearing on the situation in Libya.
    We give you both a warm welcome and our great thanks for 
the skills that you are bringing and always have brought to 
your jobs.
    Over the past few weeks, President Obama has carefully 
helped assemble a broad military coalition supported by a U.N. 
Resolution. The coalition has established a no-fly zone and an 
arms embargo, stopped Moammar Qadhafi's advancing army, and has 
seamlessly passed the command of the military effort from a 
U.S.-led joint task force to the North Atlantic Treaty 
Organization (NATO).
    The fast pace at which the administration has moved and at 
which the Department of Defense (DOD) has deployed forces is to 
be commended. It is a testament to the leadership of the 
Department and to the skill and flexibility of the men and 
women of our Armed Forces.
    It is a remarkable moment in history when the international 
community unites and acts to stop a tyrant bent on massacring 
his people. Today, Qadhafi and his supporters are more 
isolated. His military capabilities have been degraded by 
coalition airstrikes that will continue until Qadhafi ends his 
military attacks on his own people.
    As President Obama has said, while the military mission is 
focused on saving lives, we must also pursue the broader goal 
of a future for Libya that belongs not to a tyrant, but to the 
Libyan people. They are the ones who should decide Qadhafi's 
fate, just as the Egyptian people decided former Egyptian 
President Mubarak's fate.
    The multilateral nature of our involvement has been, and 
will remain, vitally important. As Admiral Stavridis told us 
this week, it has made our military task less difficult; 
provided vital resources, important advice and ideas; and 
helped overcome ``the tyranny of distance in geography.'' He 
also said that the United Nations resolutions provided 
``military clarity to the mission.''
    Thanks to the focus of our military effort being the 
protection of the population, and due to the careful 
consultation with our NATO allies and other nations, our 
actions have earned international support and, of great 
significance, the support of people and leaders in the Arab 
world, a region that has not often looked fondly upon U.S. 
actions, motives, and intentions in the past.
    The President has understood and respected our military 
leaders' concerns about mission creep. But, the President has 
also reiterated that, while regime change is not part of the 
military mission, the departure of Qadhafi is the political 
goal. To help achieve that goal, the United States has applied 
significant tools of national power to increase pressure on 
Qadhafi and his close associates, including economic sanctions, 
a travel ban, freeze on more than $33 billion in Libyan assets. 
It is critical that we use those tools of so-called ``soft 
power'' with the same determination that we have applied to 
military action.
    Under consideration is the question of whether the 
coalition, or a coalition member or members, should supply the 
opposition forces with lethal and nonlethal aid to enhance 
their ability to confront pro-Qadhafi forces. President Obama 
has said that he's not ruling that out or in. It is important 
that any such decision be made with the agreement of, or at 
least the understanding and acquiescence of, our coalition 
partners because of the military and political importance of 
maintaining broad international support for the mission.
    Also, we must weigh whether supplying arms would advance, 
and be consistent with the mission and the U.N. mandate being 
enforced. President Obama has been cautious in weighing the 
considerations and conditions for the use of military force. I 
am confident he will continue to do so in considering the many 
questions surrounding the supply of weapons to opposition 
forces.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I thank our 
distinguished witnesses appearing before us again. I know 
they've had a very heavy and difficult schedule in the previous 
month or so. So, I thank them for appearing before us today.
    I remain a strong supporter of the President's decision to 
take military action in Libya. It averted what was an imminent 
slaughter in Benghazi, and has given us a chance to achieve the 
goal of U.S. policy, as stated by the President, to force 
Qadhafi to leave power. That goal is right and necessary, and I 
agree with the President that we should not deploy ground 
troops to accomplish it.
    It is because I'm a supporter of our mission that I am 
concerned with what is being described about the next phase of 
it. As the Secretary's prepared statement makes clear, 
following the transfer of authority to NATO, the United States 
will only be playing a supporting role--namely intelligence, 
aerial refueling, search and rescue, and other enabling 
functions--but not precision strike or other offensive 
operations. That means U.S. military will no longer be flying 
strike sorties against Qadhafi's armored columns and ground 
forces. I believe this would be a profound mistake with 
potentially disastrous consequences.
    Just to be clear, I'm very grateful that we have capable 
friends, especially our Arab partners and NATO allies, who are 
making critical contributions to this mission. It's always good 
to have friends at our side. But, for the United States to be 
withdrawing our unique offensive capabilities at this time 
sends the exact wrong signal, both to our coalition partners, 
as well as to the Qadhafi regime, especially to those Libyan 
officials whom we are trying to compel to break with Qadhafi.
    I need not remind our witnesses that the purpose of using 
military force is to achieve policy goals. But, in this case, 
not only are our military means out of alignment with our 
desired end, of Qadhafi leaving power, we are now effectively 
stopping our strike missions altogether, without having 
accomplished our goal.
    Perhaps the Qadhafi regime will crack tomorrow. I was 
encouraged to see that his foreign minister has defected. So, 
maybe this will be over soon. I hope so. But, hope is not a 
strategy. It certainly doesn't degrade armored units.
    Bad weather yesterday hampered our ability to fly strike 
sorties, and Qadhafi's forces made considerable gains on the 
ground. They are adapting to our tactics. So, why would we be 
doing anything now that makes it harder and riskier to achieve 
U.S. policy?
    Let's be honest with the American people and with 
ourselves. We're not neutral in this fight. We have intervened 
in Libya. We want Qadhafi to leave power, and we want the 
Libyan opposition to succeed. At this time, we should be taking 
every necessary and appropriate action, short of committing 
ground troops, to achieve our goal as quickly as possible. We 
certainly should not be withdrawing assets that make it more 
difficult to accomplish our objective.
    We cannot afford to assume that time is on our side against 
Qadhafi, that sooner or later, maybe weeks, maybe months, or 
maybe even years, sanctions plus a no-fly zone will inevitably 
force Qadhafi from power. That is a dangerous assumption. We 
made a similar assumption after the first Gulf War, and 12 
years later, we still had sanctions, still had a no-fly zone, 
but Saddam Hussein was still in power, threatening the world, 
and still brutalizing the Iraqi people. A long and bloody 
stalemate was the terrible outcome in Iraq before, and it is 
neither acceptable nor sustainable in Libya now.
    If Qadhafi remains in power, wounded and angry, he will 
only be more of a threat to the world and to the Libyan people. 
We can't say that we averted a mass atrocity in Benghazi only 
to accept one in Misrata or some other city. That's not 
success, and the longer this drags on, the more likely it is--
the greater the risk--that balance of power on the ground may 
shift toward Qadhafi, or that some tragic event could fracture 
our coalition, which may be hard enough as it is to hold 
together over a prolonged period of time.
    I know the U.S. military has a heavy load on its back right 
now, and our men and women in uniform are doing everything that 
we ask of them, with their unique honor and effectiveness. But, 
we must not fail in Libya. I say this as someone who is 
familiar with the consequences of a lost conflict.
    We did not seek this military operation in Libya, but we 
were right to intervene. We have to deal with the world as it 
is. If the demands of our great power are truly taxing our 
supply of it, then we need to have a debate about increasing 
the size and capabilities of our force, not taking decisions 
that increase the risk of failing in our mission in a country 
that is now at the center of the most consequential 
geopolitical opening since the fall of the Berlin Wall: the 
democratic awakening of the broader Middle East and North 
Africa. That is why Libya matters. That is why now, together 
with our allies, we must be doing what is necessary, not as 
little as possible, to ensure that we accomplish our objective.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Secretary Gates.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Mr. Chairman, Senator McCain, members of 
the committee, thanks for the opportunity to speak to the 
ongoing international military operations over Libya.
    I'd like to start by providing some context for how we got 
to this point, at least from my perspective. In the space of 
about 2 months, the world has watched an extraordinary story 
unfold in the Middle East. The turbulence being experienced by 
virtually every country in the region presents both perils and 
promise for the United States, as stability and progress in 
this part of the world are of vital national interest.
    This administration's approach has been guided by a core 
set of principles that President Obama articulated in February: 
opposing violence, standing for universal values, and speaking 
out on the need for political change and reform. At the same 
time, we have recognized that each country in the region faces 
a unique set of circumstances, and that many of the countries 
affected are critical security partners in the face of common 
challenges like al Qaeda and Iran.
    In the case of Libya, our government, our allies, and our 
partners in the region watched with alarm as the regime of 
Muammar Qadhafi responded to legitimate protests with brutal 
suppression in a military campaign against his own people. With 
Colonel Qadhafi's forces on the verge of taking Benghazi, we 
faced the very real prospect of significant civilian casualties 
and hundreds of thousands of refugees fleeing to Egypt, 
potentially destabilizing that important country even as it 
undergoes its own difficult transition.
    Once the Arab League and Gulf Cooperation Council called on 
Qadhafi to cease his attacks and our European allies expressed 
a willingness to commit real military resources, it became 
apparent that the time and conditions were right for 
international military action.
    The goal of Operation Odyssey Dawn, launched on March 19, 
was limited in scope and scale. The coalition quickly achieved 
its first military objective by effectively grounding Qadhafi's 
air force and neutralizing his air defenses. During this first 
phase, the U.S. military provided the preponderance of military 
assets and firepower, as well as logistical support and overall 
command and control.
    Responsibility for leading and conducting this mission, now 
called Operation Unified Protector, has shifted to an 
integrated NATO command. Going forward, the U.S. military will 
provide the capabilities that others cannot provide, either in 
kind or in scale, such as electronic warfare, aerial refueling, 
lift, search and rescue, and intelligence, surveillance, and 
reconnaissance support. Accordingly, we will, in coming days, 
significantly ramp down our commitment of other military 
capabilities and resources.
    The NATO-led mission, like its predecessor, is a limited 
one. It will maintain pressure on Qadhafi's remaining forces to 
prevent attacks on civilians, enforce the no-fly zone and arms 
embargo, and provide humanitarian relief. There will be no 
American boots on the ground in Libya.
    Deposing the Qadhafi regime, as welcome as that eventuality 
would be, is not part of the military mission. In my view, the 
removal of Colonel Qadhafi will likely be achieved over time 
through political and economic measures and by his own people. 
However, this NATO-led operation can degrade Qadhafi's military 
capacity to the point where he and those around him will be 
forced into a very different set of choices and behaviors in 
the future.
    In closing, as I've said many times before, the security 
and prosperity of the United States is linked to the security 
and prosperity of the broader Middle East. I believe it was in 
America's national interest, as part of a multilateral 
coalition with broad international support, to prevent a 
humanitarian crisis in eastern Libya that could have 
destabilized the entire region at a delicate time. It continues 
to be in our national interest to prevent Qadhafi from visiting 
further depredations on his own people, destabilizing his 
neighbors, and setting back the progress the people of the 
Middle East have made in recent weeks.
    Mr. Chairman, I know that you and your colleagues have many 
questions. As always, my thanks to this committee for all the 
support you have provided to our military over the years.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman, thank you for the opportunity to speak to the ongoing 
international military operations over Libya.
    I would start by providing some context for how we got to this 
point, at least from my perspective. In the space of about 2 months, 
the world has watched an extraordinary story unfold in the Middle East. 
The turbulence being experienced by virtually every country in the 
region presents both perils and promise for the United States, as 
stability and progress in this part of the world is a vital national 
interest.
    This administration's approach has been guided by a core set of 
principles that President Obama articulated in February--opposing 
violence, standing for universal values, and speaking out on the need 
for political change and reform. At the same time, we have recognized 
that each country in the region faces a unique set of circumstances, 
and that many of the countries affected are critical security partners 
in the face of common challenges like al Qaeda and Iran.
    In the case of Libya, our Government, our allies, and our partners 
in the region, watched with alarm as the regime of Moammar Qadhafi 
responded to legitimate protests with brutal suppression and a military 
campaign against his own people. With Colonel Qadhafi's forces on the 
verge of taking Benghazi, we faced the very real prospect of 
significant civilian casualties and hundreds of thousands of refugees 
fleeing to Egypt, potentially destabilizing that important country even 
as it is undergoing its own difficult transition.
    With Qadhafi ignoring both the U.N. Security Council's demand and 
the Arab League and Gulf Cooperation Council's call to cease his 
attacks, and with our European allies expressing a willingness to 
commit real military resources to protect civilians in Libya under 
threat of attack, it became apparent that the time and conditions were 
right for international military action.
    The goal of Operation Odyssey Dawn--launched on March 19--was 
limited in scope and scale. The coalition quickly achieved its first 
military objective by effectively grounding Colonel Qadhafi's air force 
and neutralizing his air defenses. During this first phase, the U.S. 
military provided the preponderance of military assets and firepower as 
well as logistical support and overall command and control.
    Responsibility for leading and conducting this mission--now called 
Operation Unified Protector--has shifted to an integrated NATO command. 
Going forward, the U.S. military will provide the capabilities that 
others cannot provide either in kind or in scale--such as electronic 
warfare, aerial refueling, lift, search and rescue, and intelligence, 
surveillance and reconnaissance support. Accordingly, we will, in 
coming days, significantly ramp down our commitment of other military 
capabilities and resources.
    The NATO-led mission, like its predecessor, is a limited one. It 
will maintain pressure on Qadhafi's remaining forces to prevent attacks 
on civilians, enforce the no-fly zone and arms embargo, and provide 
humanitarian relief. There will be no American boots on the ground in 
Libya. Deposing the Qhadafi regime, as welcome as that eventuality 
would be, is not part of the military mission. In my view, the removal 
of Colonel Qadhafi will likely be achieved over time through political 
and economic measures and by his own people. However, this NATO-led 
operation can degrade Qadhafi's military capacity to the point where 
he--and those around him--will be forced into a very different set of 
choices and behaviors in the future.
    In closing, as I have said many times before, the security and 
prosperity of the United States is linked to the security and 
prosperity of the broader Middle East. I believe it was in America's 
national interests--as part of a multilateral coalition with broad 
international support--to prevent a humanitarian crisis in Eastern 
Libya that could have destabilized the entire region at a delicate 
time. It continues to be in our national interest to prevent Qadhafi 
from visiting further depredations on his own people, destabilizing his 
neighbors, and setting back the progress the people of the Middle East 
have made in recent weeks.
    Mr. Chairman, I know you and your colleagues have many questions, 
so I will now turn things over to Admiral Mullen. As always, my thanks 
to this committee for all the support you have provided to our military 
over the years.

    Chairman Levin. Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Thank you, Mr. Chairman, Senator McCain, 
and distinguished members of this committee.
    I share the Secretary's gratitude for the opportunity to 
talk to you about coalition operations in support of the Libyan 
people.
    Let me start with a brief assessment of where we are today, 
and then leave you with some impressions.
    As of early this morning, NATO assumed command of the 
entire military mission over Libya. There are more than 20 
nations contributing to this operation, in all manner of ways; 
some public, some not so public. Contributions range across the 
board, from active participation in strike operations to 
financial aid and assistance for humanitarian efforts.
    We are joined in this endeavor by several Arab countries, 
who have, despite domestic challenges of their own, chosen to 
come to the aid of the Libyan people. I hope they do so knowing 
that the United States and the international community remain 
grateful for their experience and their leadership, but also 
knowing that no one military, no one nation, can or should take 
on a mission of this nature alone.
    This coalition we have forged--in record time, mind you--is 
not only a coalition of the willing, it is a coalition of the 
able, with each nation bringing to the effort what they can, in 
terms of knowledge and skill, to tackle a very fast-moving, 
complex humanitarian crisis.
    Twenty-five warships patrol off the coast of Libya today, 
including two allied aircraft carriers--France's Charles de 
Gaulle and Italy's Garibaldi--each with combat aircraft 
embarked. There are also, in those waters, destroyers and 
frigates, patrol boats, oilers, and submarines. There's even a 
United States amphibious ready group centered around USS 
Kearsarge.
    On these ships and at European bases ashore, the NATO 
commander from Canada, Lieutenant General Charles Bouchard, has 
at his disposal more than 220 aircraft of just about every size 
and stripe imaginable. With these pilots and with these planes, 
he may operate freely throughout the Libyan airspace around the 
clock, studying and gaining intelligence of regime ground force 
movement and intentions, striking targets of opportunity on 
little or no notice, and preventing Qadhafi from using his own 
air force to attack his own people.
    I would note that among these coalition aircraft are more 
than a dozen from Qatar and the United Arab Emirates. Fighter 
pilots from Qatar have already flown more than 30 sorties in 
support of the no-fly-zone mission.
    Indeed, in just the last 24 hours, the United States, NATO, 
and coalition aircraft flew some 204 sorties, 110 of which were 
strike-related, hitting fixed and mobile targets in the 
vicinity of Tripoli, Misrata, and Ajdabiya. We have such 
freedom of movement because we move quickly in the early hours 
of the operation to render ineffective regime air defenses and 
command and control. The first cruise missiles and strategic 
bombers struck late Saturday night, March 19, Tripoli-time. By 
mid-afternoon the next day, the no-fly zone was essentially in 
place.
    We have continued to strike Qadhafi's military capabilities 
where and when needed. It's my expectation that, under NATO 
leadership, that level of effort and focus will not diminish. 
What will diminish, as the Secretary said, is the level of U.S. 
participation in offensive operations as we turn our attention 
to providing our unique enabling capabilities.
    Mr. Chairman, I've been involved with allied and coalition 
operations of one kind or another for much of the past decade, 
from the Balkans to Iraq and Afghanistan, and I cannot remember 
a time when so many nations mobilized so many forces so fast. 
The enemy wasn't just Qadhafi's military, it was also the clock 
as he marched on Benghazi, intent on brutalizing the people 
there. But, we were ready. Before the ink was even dry on that 
U.N. Resolution, there were planes and ships, pilots and 
sailors moving into position, ready to act. They were able to 
do that because we--and I mean the collective ``we,'' not just 
the United States--have invested in close relationships with 
one another, facilitated by nearby air and naval basing, and 
improved over time through annual exercises, personnel 
exchanges, actual combat experience, and mutual dialogue.
    Nobody is underestimating the scope of the challenge before 
us. Qadhafi still possesses superior military capability to 
those of the forces arrayed against him. He still shows every 
desire of retaking lost ground. In fact, he did so yesterday. 
He still wants Benghazi back and Ajdabiya. He still denies his 
own people food, water, electricity, and shelter. He threatens 
them on the streets of Misrata and Zintan. He has made no 
secret of the fact that he will kill as many of them as he must 
to crush the rebellion.
    I will leave to our political leaders the task of debating 
the character of the mission we have been assigned. But, I can 
assure you that your men and women in uniform will execute that 
mission now in support of NATO with the same professionalism 
with which they have led that mission until today.
    Thank you for your continued support of our men and women 
and their families.
    Chairman Levin. Thank you both.
    As I mentioned this morning, Secretary Gates' schedule 
allows only 2 hours for him to be with us this afternoon. If 
we're all going to have an opportunity to ask questions, I 
would appreciate Senators limiting questions to 5 minutes. If 
votes occur in the Senate this afternoon, as was the plan this 
morning, we'll have to work around those votes, because we 
can't recess during this period of time.
    My first question is for you, Admiral. Can we have your 
personal view as to whether you support the military mission in 
Libya, as authorized by U.N. Security Council Resolution 1973?
    Admiral Mullen. I do.
    Chairman Levin. Can we also have your personal view as to 
whether or not you would support broadening the military 
mission to include regime change?
    Admiral Mullen. I don't.
    Chairman Levin. Can you tell us why?
    Admiral Mullen. I very much believe that the mission, as 
it's currently stated, which was to prevent a humanitarian 
crisis, is the right mission at the right time, and, in fact, 
in its execution, prevented that as Qadhafi's forces marched on 
Benghazi. I think that at least my own experience has been that 
with regime change, is that it can be long and very, very 
indeterminate in its outcome.
    Clearly, the policy of the President is one to see Qadhafi 
out, to see regime change in that regard. I think that can be 
accomplished through the limited military mission that we have 
and then the additional tools, if you will, that we have to 
pressure him over time.
    Chairman Levin. Admiral, from a military perspective, do 
you agree that having a broad international coalition and 
support in place makes a difference?
    Admiral Mullen. I think it has. Yes, sir. Clearly.
    Chairman Levin. Now, on the question of providing arms to 
the opposition: Admiral, I believe you've said that you're 
looking at all options, from doing it to not doing it.
    Both of you, I believe, have pointed out that other 
countries have the capability to provide arms to the 
opposition. Admiral Mullen, I think, again, said, this morning, 
no decision has been made on this question. So, I'm going to 
ask a slightly different question to you, Secretary Gates.
    What do you see are the pros and cons, both politically and 
militarily, of providing arms to the opposition forces? If they 
are going to be provided, would it be better for Arab nations 
to provide them?
    Secretary Gates. I think that one of the concerns that we 
have to have is that we don't know very much about the 
opposition. We know a handful of the leaders, who we have some 
biographic information on and some history. But, other than 
that, we really don't know much about what I think is a very 
disparate, disaggregated opposition to Qadhafi. We have very 
little insight into those who led the uprisings in the cities 
in the west, and who they are. Below the level of the top 
leaders, we don't have much information in--with respect to the 
east, as well.
    Another factor, I think, is that there appear to be a 
substantial number of small weapons available to the 
opposition. They've broken into magazines and arsenals, and 
taken a good bit of small arms, particularly. What they really 
need is training, command and control, and some coherent 
organization. I believe that that requires advisors on the 
ground, as would more sophisticated weapons, in terms of 
training them on how to use those weapons.
    So, I think that those are some of the considerations that 
need to be taken into account. Obviously, the upside is 
providing them with more sophisticated weapons might enable 
them to be more successful. But, I think that, frankly, is not 
the primary need right now.
    Chairman Levin. Secretary, do we support a real cease-fire 
coming into existence--assuming, again, it's real. I know there 
would be a lot of doubt about that, particularly relative to 
Qadhafi, since he's already announced five or six false cease-
fires. But, do we support a real cease-fire coming into 
existence?
    Secretary Gates. I think the President has laid out the 
requirements for at least stopping the attacks on the ground 
forces. That is that Qadhafi had to withdraw his forces from 
cities like Misrata and one or two in the west and--where the 
fight was still going on--as well as pulling well to the west 
of Ajdabiya. When those things were announced, Qadhafi was 
racing pell-mell (petal to the metal) to the east, and clearly 
had no interest in abating what he was doing. Frankly, I would 
be very skeptical of any cease-fire that he would agree to. I 
think he has demonstrated, in the past few weeks, that he would 
take advantage of such a cease-fire, simply to round up more 
civilians.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Secretary, we are hearing published reports that the 
rebels are in, literally, full retreat right now. Is that 
correct?
    Secretary Gates. They had retreated to Ajdabiya. Whether 
they have withdrawn beyond that, I don't know.
    Senator McCain. The situation in Misrata, as reported by 
CNN--and I just looked again--is of severe hardship and 
suffering, because of the long period of siege that the city 
has been under. You agree with that, I am sure. So, when the 
rebels are being beaten rather badly, Misrata is under credible 
duress, we choose that opportunity to remove our assistance, as 
far as air support is concerned. Will our AC-130s and A-10s 
continue to conduct operations?
    Secretary Gates. Let me ask the Admiral to----
    Admiral Mullen. Well, as we continue to transition, 
certainly over the next few days, Senator McCain, they are 
available to the NATO commander.
    Senator McCain. They're not flying now, though.
    Admiral Mullen. I couldn't tell you if they're flying 
today. No, sir.
    Senator McCain. So, are there any other assets that our 
allies have that have similar capabilities as AC-130s and A-
10s?
    Admiral Mullen. No, sir.
    Senator McCain. Secretary Gates, is a stalemate in Libya an 
acceptable outcome? One might draw that conclusion when you 
said, ``The removal of Qadhafi will be achieved over time 
through political and economic measures and by his own 
people,'' something they didn't succeed in for 42 years.
    Secretary Gates. I think one of the things that is 
different from all the rest of his regime history is the fact 
that we will be continuing attacks on his military, on his 
military stores, on his logistics. This, in fact, I think, is 
one difference between the no-fly zone in Libya and the no-fly 
zone in Iraq during the 1990s. That is our ability, in the 
current circumstance, to continue attacking his ground forces 
and continuing to attack and degrade his capabilities, with no 
opportunity for resupply. So, his military, at a certain point, 
is going to have to face the question of whether they are 
prepared, over time, to be destroyed by these air attacks, or 
whether they decide it's time for him to go.
    Senator McCain. So, in your words, a stalemate in Libya is 
not an acceptable outcome?
    Secretary Gates. No. I think from a longer-term standpoint, 
no, it's not.
    Senator McCain. Does the withdrawal of U.S. strike and 
close air support capabilities at this time make a stalemate in 
Libya more or less likely?
    Secretary Gates. I'm not sure that it will have an effect, 
either way, Senator. I think that part of it will depend on the 
number of sorties that the coalition can continue to generate. 
I will tell you that we have made provision to have our strike 
aircraft available, within a relatively short period of time, 
should it become apparent that the NATO capabilities are 
inadequate and another humanitarian disaster, such as a race to 
Benghazi, might occur. So, we are sort of on a standby. But, we 
believe--and I invite the Admiral to comment--we believe that 
our allies actually have the capabilities to continue to 
degrade his military capabilities.
    Admiral Mullen. Senator McCain, our allies--Denmark, 
Belgium, France, the U.K., Canada--along with us, have actually 
been very, very impressive, over the course of the last week. 
We--as I know you know, we've been very badly impeded, in the 
last few days, by weather. It's a question that I've asked 
constantly of the commander out there as he's watched various 
countries perform. At least it was his assessment that he had a 
high level of confidence that they would be able to continue to 
execute this mission.
    Senator McCain. Without the most capable aircraft at close 
air support, which are the A-10s and the AC-130s. F-16s are not 
designed for that nor are they the most capable. But, the fact 
is that your timing is exquisite. At a time when the Qadhafi 
forces have literally, tragically, routed the anti-Qadhafi 
forces, that's when we announce that the United States is 
abdicating its leadership role and removing some of the most 
valuable assets that could be used to great effect against 
those rebels. I'm glad to know that small arms will be 
effective for them.
    Well, it's very disappointing, what you have told us here 
today. It's very disappointing that we have a policy that we 
are not prepared to use means necessary in order to gain that 
policy end. I hope, as I said earlier, that Qadhafi will be 
deposed from within.
    I worry about what's going to happen in Misrata while we 
wait to see if our allies need to call in additional help. 
It's, I guess--one of the lessons of warfare that I learned a 
long time ago is, if you go into a conflict, Secretary Gates, 
I'm fond of quoting General MacArthur--he once said, ``There is 
no substitute for victory.'' Seems to me, we are not doing 
everything necessary in order to achieve our policy goals, and 
including relieving what is happening to the anti-Qadhafi 
forces and in places like Misrata. I hope we don't learn a 
bitter lesson from it.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to you, Mr. Secretary and Admiral Mullen.
    I feel very strongly that the U.S. and NATO and our Arab 
allies have done the right thing in going into Libya to the 
extent that we have, with the no-fly zone and the protection of 
the civilian population, for humanitarian reasons, because this 
is our way to say that we are supportive of the democratic 
uprising within the Arab world.
    So, in that sense, I agree with President Obama--I also 
agree with President Obama that this--it's unacceptable for our 
involvement to end with Qadhafi still in power. In that sense, 
I agree with you, Mr. Secretary, that a stalemate is not an 
acceptable resolution of all of this.
    Our application of air power has been having a significant 
effect. We saved the people of Benghazi from a humanitarian 
disaster, and we opened the way for the opposition to Qadhafi 
to begin to move forward militarily. But, the last few days 
have been unsettling.
    Let me ask you, first, as a matter of fact, following up on 
what Senator McCain said, do you feel confident, Mr. Secretary, 
that NATO's assumption of the responsibility for enforcement of 
the no-fly zone and protection of the civilian population does 
not represent a diminution of the air capabilities that the 
United States brought to bear when we were solely with our 
coalition partners in charge?
    Secretary Gates. Let me take a crack at that and then 
invite the chairman, because he's more knowledgeable about that 
than I am.
    I think it remains to be seen. The question is whether they 
can continue to generate the number of sorties that we've been 
flying, and so on.
    Senator Lieberman. Right.
    Secretary Gates. But, let me one thing clear. This 
transition was part of the package and part of the plan with 
our allies, from day one. Everybody understood that the United 
States would come in heavy and hard at the beginning.
    Senator Lieberman. Right.
    Secretary Gates. We would destroy, with our unique 
capabilities, the air defense capability and his ability to fly 
his airplanes, and make possible the sustainment of the 
humanitarian mission and the no-fly zone with potentially fewer 
aircraft and fewer sorties. But, the idea all along was--and it 
was the agreement that was made with our allies--that we would 
commit these very significant resources at the beginning, but 
there would be a transition and we would recede to a support 
role as soon as we had reached the point where those air 
defenses had been suppressed.
    So this is not a surprise. The timing with their--with 
Qadhafi's success, which, as the Admiral says, is coincident 
with bad weather that's prevented us----
    Senator Lieberman. Right.
    Secretary Gates.--from flying, is unfortunate. But, the 
fact is, this has been the strategy and the plan all along, and 
the allies knew it.
    Senator Lieberman. I want to pick up on something you said, 
that obviously it remains to be seen that whether NATO brings 
as much to the enforcement of the no-fly zone civilian 
protection as we did, and whether they are capable of flying as 
many sorties. Is it fair to conclude that if for some reason 
they don't, we will reconsider the extent of our involvement 
with NATO in those actions?
    Secretary Gates. I think we would have to say that the 
answer to that is yes.
    Senator Lieberman. Okay.
    Let me go to the other part of this. I understand the 
decision that it's not one of our military goals to get Qadhafi 
out of power. It's, however, our political goal. In my 
opinion--and we're going to advance that, hopefully, through 
diplomatic, economic, and political means--but, if the 
opposition to Qadhafi on the ground is not showing military 
capability, it seems to me that it removes one of the 
incentives for Qadhafi to leave power. As I understand what 
happened in the last few days, when NATO couldn't fly the no-
fly zone and the anti-Qadhafi forces were basically left on 
their own, they were overwhelmed. There wasn't a fair fight by 
the Qadhafi forces. So, my question is: Isn't it critically 
important, even as part of realizing our political goal of 
getting Qadhafi out, that we or our allies provide either more 
weapons and/or training, discipline, command and control, soon 
so that they can put up a fair fight, and hopefully such a fair 
fight that they will advance westward and give Qadhafi one more 
reason to leave power?
    Secretary Gates. I think that providing them the training 
and help like that is important. One of the concerns, and one 
of the issues, is, frankly, they haven't asked for it. It's not 
clear what anybody would have to work with, in terms of getting 
a number of people together, even, for the training, and who's 
going to be in charge.
    So, part of the challenge that everybody faces in Libya, 
going back to what I said at the very beginning, is the 
disaggregated, disparate nature of the opposition and the way 
it's scattered across the country. There's really no critical 
mass to work with, perhaps, outside of Benghazi.
    Senator Lieberman. My time's up, but I'd just say--and I 
know you know this--that leaves us with a real dilemma, because 
we've committed American power, NATO's committed, Arab allies 
are committed. Our goal, politically, is for Qadhafi to get out 
of there, and yet, the boots on the ground, which are the 
Libyan boots, are themselves unable to win this fight. So, we 
have--it seems to me that we're facing a stalemate, or even a 
Qadhafi victory, unless we and our allies figure out how to 
make the opposition forces to Qadhafi at least an equal to 
Qadhafi's forces.
    Secretary Gates. I think there is an alternative outcome, 
Senator. I go back to the point I made earlier; and that is, we 
continue, and the alliance will continue, to degrade Qadhafi's 
military capabilities. It wasn't that long ago that there were 
uprisings all across Libya, and Qadhafi's forces were on the 
defensive. They were--they either turned and joined the 
oppositionists or they retreated out of some of these cities. 
It was only because his military capabilities remained intact 
that he was able to put down those uprisings. So, there's 
clearly a lot of people across Libya that are ready to rise up 
against this guy. If we can sufficiently degrade his military 
capability, it seems to me that then gives them the opportunity 
to do that.
    Senator Lieberman. I appreciate that answer. Thank you very 
much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Wicker.
    Senator Wicker. Thank you.
    I want to agree with Senator Lieberman, when he suggested 
in his questions that it is unacceptable, in the end, for 
Qadhafi to remain in power.
    It is engaging in nuance to say that our military goal is 
not the removal of Qadhafi, but that it is our political goal. 
Words are important and precision is important, and sometimes 
nuance is important, but that doesn't take away from the fact 
that our overriding concern, in my view, should be the removal 
of this international terrorist, this dictator and savage 
butcher, who is reviled in his neighborhood, like no leader on 
the face of the globe. To think that we would be passing up an 
opportunity to remove him as a threat to United States 
interests and as a threat to the region is an unacceptable 
thought.
    Both witnesses have said that their view is that, over 
time--I think both of them use the term ``over time''--Colonel 
Qadhafi will likely be removed. That leaves quite a bit of 
leeway.
    Gentlemen, I wish you well in somehow participating in an 
effort that continues to be heavy and hard til we have won this 
thing on the side of the people who we have weighed in with. 
There's no question that we have weighed in.
    Senator Lieberman said what many of us know: the last few 
days have been unsettling. The last 2 days, there have been 
reversals for the rebels.
    Admiral, to what extent have those reversals at all 
resulted from the removal of United States close air support in 
the form of AC-130s and A-10s?
    Admiral Mullen. Virtually none. What's happened in the last 
3 days has been weather for everything that's flying. They 
can't get on the targets; they can't see the targets, 
specifically.
    In the success that the rebels enjoyed, the 3 or 4 days 
before that, to push Qadhafi's forces to the west, they 
stretched themselves too far. Qadhafi's forces, as they've come 
back in the last few days, I've watched them stretch themselves 
to a point where they're concerned about medical, food, fuel, 
support--logistics support. We've hit their logistics support 
pretty significantly since this started.
    Literally, right now, as of just before this hearing, the 
situation was that Qadhafi's forces are consolidating south of 
Ajdabiya. What we think is that they will move towards both 
Ajdabiya and Benghazi when they get consolidated.
    Each time the forces have interacted, if you will, the only 
success the rebels have enjoyed is when they've had that air 
power, when they've had that support. That's really allowed 
them to move. Without that, they've had brief contact, but 
basically they've been in retreat over the last couple of days. 
They, too, have outstretched their supplies in some cases, as 
it has evolved over the last week.
    Senator Wicker. Admiral, to what extent will you be 
involved in decisionmaking that might involve a return to 
action of our AC-130s and A-10s.
    Admiral Mullen. Well, first of all, the AC-130s and the A-
10s are still available, and they will be for the next few 
days. They're available to the commander of the----
    Senator Wicker. So, it's a mistake to say they've been 
taken out of the action, except for the weather.
    Admiral Mullen. Correct.
    Senator Wicker. Well, that's comforting to know.
    Admiral Mullen. As I said to Senator McCain, I honestly 
don't know if they're flying today, or not. But they are still 
available, if you will, to the commander for the next few days, 
until the transition on--the complete transition on the 
civilian protection mission has been completed.
    Senator Wicker. After that transition, are you suggesting 
that our NATO allies are unlikely to use this best kind of 
aircraft for close air support?
    Admiral Mullen. As the Secretary indicated, we have made 
provisions to put in standby United States capability that 
could be called upon. That would actually come back up through 
the U.S. chain to make it available to NATO, if the situation 
were dire enough to do that.
    Senator Wicker. Secretary Gates, did the State Department 
spokesman, P.J. Crowley, misspeak when he said, ``It's very 
simple. The U.S. Security Council Resolution passed on Libya. 
In that Resolution, there is an arms embargo that affects 
Libya, which means it's a violation for any country to provide 
arms to anyone in Libya''?
    Secretary Gates. That was true of Resolution 1970, but it 
is not true of Resolution 1973. The embargo in Resolution 1973 
applies only to Qadhafi and the government.
    Senator Wicker. So, it would be perfectly legitimate and 
acceptable, under the Resolution in effect today, for the 
United States and our allies to supply arms assistance to the 
Libyan opposition.
    Secretary Gates. Yes, sir. That is permitted by the 
Resolution.
    Senator Wicker. Thank you, sir.
    Gentlemen, thank you for your service. I know you're tired 
and I know you're focused on this, and I appreciate it.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I have a great respect for both of you, and for 
the way you have handled this military situation in this 
dilemma for the past several weeks. I appreciate all that 
you've had to do today, too, and your earlier testimony.
    I'd like to follow up on one thing that Senator Wicker just 
said, as an introductory comment. That is, it seems to me--and 
I think to everybody else--that we are clearly involved in 
regime change in this issue, and in the evolution, at the same 
time, of a very unpredictable political scenario. This isn't a 
military question--you are implementing a policy decision--but 
it is definitely a diplomatic reality.
    We, at the same time, do not know who the opposition is, or 
what they will do if and when--and it's probably ``when''--
Qadhafi leaves. So, the situation that we are facing, and its 
implications, are much more complex than the way that they're 
often being characterized over here.
    When you have a sustained operation--I think we all have to 
agree, this is something more than a rebellion; I don't know 
how we would characterize it--maybe you could help me in a 
minute. I'm not sure we could call it a civil war. But, we are 
arming one side as a result of these decisions. For myself, I 
think we need to start looking very hard into the immediate 
future. I don't know whether there's going to be a stalemate.
    Secretary Gates, I think you answered this question in a 
way that I would agree, that at some point there will probably 
be an implosion, from what we can tell, inside Libya, that will 
cause a government change. But, we're going to have a period 
where either we're going to have a stalemate or, at some point, 
Qadhafi is going to fall.
    The question for us is how we prepare for that period, and 
what we believe the American policy ought to be, because I 
think we can probably assume that, either way, there are going 
to be reprisals and there are going to be calls for an 
international involvement in Libya, in order to sort these 
things out.
    So, my bottom line here, Mr. Chairman, is to support what 
you said, I believe it was yesterday or the day before, that, 
whether or not we are going to invoke the War Powers Act, I do 
believe we need to have a process where we have a discussion 
about the implications of what's going on right now, looking 
down the road, so that we can have some sort of debate and 
understanding here in the Government, writ large, rather simply 
than having to follow the prerogatives of the administration on 
this issue.
    But, Secretary Gates, how would you characterize this 
rebellion? How should we look at it? Is it a civil war?
    Secretary Gates. I think it represents a fairly broadbased 
uprising against an oppressive government. I mean, the number 
of cities and towns in which there were uprisings and people 
taking it on themselves to confront the security services and 
the military, I think makes it more of a broad uprising against 
the government than it does a civil war. ``Civil war'' would 
imply that there are--to me at least, would suggest that there 
are two established governments or two established entities 
that have some kind of structure and that are in conflict for 
power.
    The best I can tell from most of these uprisings is that 
the principal agenda was getting rid of the government they 
have. I think one of the challenges that we're all going to 
face when Qadhafi falls is, as you suggest, What comes later? I 
think we shouldn't exaggerate our ability to influence that 
outcome. The tribes will have a big influence, whether the 
military splits or if the military turns on Qadhafi. There are 
a number of different alternative outcomes here, only one of 
which is some sort of proto-democracy that moves toward a 
protection of rights and so on. So, I think we have to be 
realistic about that.
    Senator Webb. I couldn't agree with you more. That's what 
makes the decisionmaking in this so difficult, is that the only 
thing that we know, that everybody seems to agree with, 
including our side, is that we think this one individual needs 
to go. But, at the same time, it's going to be an enormous 
challenge to use your terminology and your statement, for not 
only for this country, but for our vital interests in the 
region. It's going to be an enormous challenge to see what 
follows on that, knowing the history of the region and the 
traditions of reprisals, whether Qadhafi's gone or not, and the 
way that we may be drawn in, in the aftermath.
    So, again, Mr. Chairman, I hope we can have a proper kind 
of discussion here in Congress on the implications of what we 
are doing.
    At the same time, again, I want to give my utmost respect 
to both of you for the way that our military and our leadership 
in DOD has carried out their responsibilities as this decision 
was made.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Secretary Gates and Admiral Mullen.
    I'm sure both of you are familiar with the--Secretary 
Powell's doctrine, as well as Secretary Weinberger's doctrine, 
in terms of when we should engage in military conflict. I 
wanted to know whether those questions that are raised in those 
doctrines were engaged in before we engaged in this conflict.
    Secretary Gates. I would tell you, Senator, that I think 
that not only those questions, but all of the questions that 
have been raised in Congress and in the media, were discussed 
and debated at great length and with great intensity as we 
tried to figure out what to do in this situation.
    Senator Ayotte. Secretary Gates, just following up on that, 
one of the questions that would be asked is, ``do we have a 
clearly-attainable objective here?'' How would you define our 
clearly-attainable objective?
    Secretary Gates. I think that there are two objectives. 
There is the military mission, which is the no-fly zone and 
preventing Qadhafi from slaughtering his own people, and there 
is the political objective of the overthrow of the regime. I 
guess I'd just have to say that my view, looking back over the 
years, is, I would be very hesitant--in fact, I would oppose 
the idea of making regime change a military objective. I think 
it--if it's to be imposed from the outside, I don't see how it 
can be done without people on the ground.
    Senator Ayotte. What I'm really struggling with is how we 
meet the objective you just defined, of protecting and 
preventing a slaughter from Qadhafi, if we're in a position 
where the rebel forces can't maintain a military position again 
Qadhafi's forces and we're not putting our full might in to 
make sure that civilians are protected. I just can't understand 
how we're going to be able to meet the objective that you've 
identified without going forward in a more forceful fashion 
than we are right now.
    Secretary Gates. I would just say that when you say 
``putting the full might have the United States involved,'' as 
far as I'm concerned, that's another full-scale war in the 
Middle East.
    Senator Ayotte. Well, let me qualify that, Secretary Gates. 
What I'm saying is that we're in a position right now where you 
said that our goal is to protect civilians--Libyan civilians. 
However, the forces that would--with Qadhafi there, I don't see 
how we can continue to protect civilians, given that he is the 
threat against his own people that we are seeking to protect 
them from. So, that's why I'm struggling with the political 
goal versus the military goal, and not putting the resources 
that are necessary. Obviously, I don't support putting ground 
troops in. With limitations like that, that's what I'm trying 
to understand.
    Secretary Gates. It is the question of how much you can 
accomplish strictly with air power. I think what we have seen 
is that, when the weather cooperates with us, we clearly, 
significantly enabled the rebels, with the same kind of 
military capabilities they have right now, to move to the 
outskirts of Sirte. So, as this moves back and forth, and as 
the Admiral said, their supply lines get stretched and so on, 
the limitations on both sides are pretty clear.
    I think that we just have to face the reality that we, over 
time, are taking a significant toll on his military 
capabilities and his ability to use those forces against his 
people.
    Senator Ayotte. I just wanted to also add my support for 
the comments that Senator Lieberman made about what I see right 
now as an inherent contradiction in our policy of being able to 
obtain the objectives that we've identified in Libya.
    Thank you very much for answering my questions today.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good afternoon, gentlemen.
    We've heard that the regime's air defenses have been 
essentially neutralized. I'd like to use you all to look at the 
broader picture in that context. Can you give a battlefield 
damage assessment associated with the U.S. and NATO's 
operations? To what extent have Qadhafi's ground forces, 
armored and unarmored, been degraded?
    Admiral Mullen. His air defenses have been essentially 
completely taken out. He does have some portable air defense 
systems that are still out there, although few in number, and--
but still with potential. His command-and-control nodes have 
been significantly degraded. The ratio right now, roughly, on 
the ground is about 10 to 1, with respect to his ground forces, 
his ground capability. He has a lot more tanks, a lot more 
armored personnel carriers, and a lot more artillery, those 
kinds of systems, than the much more lightly armed resistance 
or opposition forces.
    So, that's the most significant part of what he has left, 
and that is of great concern.
    Senator Udall. Recently, Admiral Stavridis was in front of 
us, as well, gentlemen. I asked him how the NATO forces would 
interpret the rules of engagement (ROE). Now I understand NATO 
has warned rebel forces against attacking civilian targets. I'd 
like to ask you directly. Given that the NATO mission is to 
protect civilians from harm, if rebel forces were to fire on 
civilian targets or military targets that place civilians in 
harm's way, what steps would we take to protect innocent 
people? Would we fire on the rebels?
    Admiral Mullen. I have seen nothing so far, over the course 
of these engagements to date, that the rebels are going to do 
that. We're very focused on the civilian protection piece of 
this, going in both directions. The main focus is obviously on 
his regime forces. It's much clearer outside the towns, if you 
will. Senator McCain and others have talked about Misrata. When 
you're downtown and Qadhafi's regime forces are hiding in 
buildings and the like, those shots are not being taken because 
of the potential for civilian casualties.
    So, it is, at least from my perspective, the countries who 
are engaged in this aspect of the mission, both before NATO 
took over and afterwards, I haven't seen, while there's been a 
discussion about it, I haven't seen the NATO ROE be restrictive 
in that regard, assuming we execute the mission the same way.
    Senator Udall. These are delicate questions, I think you 
would acknowledge.
    Admiral Mullen. They are.
    Senator Udall. Yes.
    I share your concerns about worst-case scenarios, and I'm 
remaining optimistic. But, I'd like to ask you about options, 
should the mission last longer than we might expect. Are we 
working to add coalition partners to the mission, who could 
share the load?
    Admiral Mullen. We've been doing that, literally, since 
this first came on the scope. It continues to work in that 
direction. So, when Secretary Clinton was in London on Tuesday, 
the Swedes came forward with eight aircraft to contribute to 
the mission. So, that work continues to go on.
    It's not just about military capability, because there's a 
whole lot of work going on, in terms of financial support, 
humanitarian assistance, and other aspects of this mission, as 
well.
    Senator Udall. Admiral and Secretary Gates, I think, in 
Secretary Gates' well-crafted and right-to-the-point statement, 
you said that, ``Going forward, the U.S. military will provide 
the capabilities that others cannot provide, either in kind or 
in scale, such as electronic warfare, aerial refueling lift, 
search and rescue, and intelligence, surveillance, and 
reconnaissance support. Then we're going to ramp down--
significantly ramp down our commitment of other military 
capabilities and resources.'' Does that mean the sorties and 
the ordnance that's being directed at Qadhafi's forces will be 
provided by our partners in NATO?
    Secretary Gates. Yes.
    Senator Udall. We believe that they have the capabilities 
and the capacity to do that, obviously.
    Secretary Gates. Yes. As we've indicated previously in the 
hearing, we will have capabilities on standby, should, in 
extremis, they be needed.
    Senator Udall. Is it fair to say that, in effect, the 
military operation is designed to create space for political 
options to unfold, including, as we all want, Qadhafi to leave 
the scene?
    Secretary Gates. I think this is one of the aspects of this 
that is always complicated when you're dealing with a coalition 
and operating under a U.N. Security Council Resolution.
    The Security Council Resolution provides only for the no-
fly zone and the humanitarian mission, along with the arms 
embargo and so on. So, it doesn't talk about degrading his 
military or regime change or anything like that. So, you have 
individual members of the coalition that are leaning very far 
forward, in terms of the political objective of getting rid of 
Qadhafi, but you also have others in the coalition that say 
they don't want any part of that.
    The military mission is being flown and being operated, as 
the Admiral has suggested, to fulfill those missions. Degrading 
his military capabilities is seen as the way to try and help 
protect the civilian population.
    Senator Udall. Let me just end on this note. Secretary 
Gates, I really think you made an important point, in your 
statement again, where you said you believe it's ``in our 
national interest, as part of a multilateral coalition with 
broad international support, to prevent a humanitarian crisis 
in eastern Libya that could have destabilize the entire region 
at a delicate time.'' I think that's at the heart of what we're 
doing. Thank you for making that clear.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Udall.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Secretary Gates and Admiral Mullen, let me join my 
colleagues in expressing our great admiration and respect for 
both of you. We realize that you didn't make the policy 
decision; you're just given the responsibility of carrying it 
out.
    I only wish the President had taken the time to come to 
Congress, before he went to the U.N. Security Council, to 
explain to us what he planned to do, what he wanted to do, and 
to secure an authorization for use of military force. I'm not 
going to get in a legal argument with anybody at this point 
about whether that was required, but it strikes me that it's 
incredibly important that the American people understand the 
reasons the President decided to go forward, the limitations on 
our ability to effect an outcome, so they can then--we, as 
their representatives, could express a view on this matter. 
But, the President has taken that on himself, and now we are 
being sort of left with the explanation after the fact.
    There was a poll just came out today that said that 21 
percent of Americans believe that the United States has a 
clearly defined mission in Libya, 21 percent. I bet if you took 
a poll of Congress, the numbers would be similar. But, it's--of 
course, NATO, who is now being handed off the responsibilities 
in Libya--the role of the United States in NATO is essential to 
NATO's success, wouldn't you agree with that, Secretary Gates 
and Admiral?
    Secretary Gates. Yes, sir.
    Admiral Mullen. Yes, sir.
    Senator Cornyn. I mean, it's not as if, by handing things 
off to NATO, it's something other than the United States and 
coalition partners; for example, in Afghanistan, where we have 
a 2-to-1 American contribution, in terms of troops on the 
ground. I'm interested, if, in fact, NATO makes a 
determination, Secretary Gates, that a stabilization force is 
needed on the ground--I understand it's within the power of the 
United States Government to withhold its participation in a 
stabilization force--but, would the United States participate 
in that, or would we withhold?
    Secretary Gates. First of all, I think that the Security 
Council Resolution specifically prohibits a foreign occupying 
force. So, unless--the circumstances under which any kind of 
stabilizing force would go in would, I think, be open to 
debate. I, frankly, would tell you, based on the debate leading 
up to the NATO agreement to take on this responsibility, that 
the chances of getting authorization, under NATO auspices, to 
put boots on the ground would be virtually impossible.
    Senator Cornyn. I'm worried, in light of your answer and I 
sort of expected an answer along those lines, that we may have 
started something that NATO's not going to be in a position to 
finish. I wish----
    Let me just ask you this. Secretary Gates and Admiral 
Mullen, do you know what the U.S. Government plan is if Qadhafi 
were to go into exile tomorrow?
    Admiral Mullen. You mean after the celebration? [Laughter.]
    Senator Cornyn. I hope it would be a celebration.
    Admiral Mullen. I'd go back to my answer to Senator Webb. I 
think we should not exaggerate our ability to influence the 
political outcome in Libya, even after Qadhafi goes. I think 
that there is the opportunity for other Arab states, for the 
international community, to try and influence that outcome; 
but, I think we're kidding ourselves if we don't think there's 
going to be some kind of a struggle for power.
    Senator Cornyn. That means a civil war?
    Admiral Mullen. No, not necessarily. But, there, even 
Qadhafi rules by balancing the tribes and, the major tribes, 
and playing them off against one another and so on. He does 
that through money and some intimidation, and so on. So, it's a 
complicated business, in terms of his governance, even his 
governance. I think it's likely to be more complicated in the 
future.
    But, I think we've lost our place a little bit in this, in 
a couple of respects. The urgency of this mission was based on 
the fact that his forces, 2 weeks ago, were racing for 
Benghazi, a city of 700,000-plus, and the belief that, once he 
got there, he would slaughter a large number of people. So, the 
reason for the urgency and the speed with which this came 
together was to have the capability to stop him from getting to 
Benghazi, and that part of the mission was successful.
    Another concern was the millions of foreign workers in 
Libya. There are over 1 million Egyptians and the fact that we 
had hundreds of thousands of them fleeing for the borders of 
both Tunisia and Egypt had the potential to create a 
destabilizing influence in both of those countries. So, getting 
that stopped was very important. Then we have taken on this 
effort to try and protect the civilians inside Libya.
    But, one of the things that I think we have accomplished is 
to reduce his ability to destabilize North Africa and Egypt and 
Tunisia. Now we will have to work with our allies and with the 
opposition inside.
    Senator Cornyn. I have no doubt that the situation was 
dire. Again, I wish the President had had this conversation 
before the U.N. Security Council was asked to pass the 
Resolution, that he had come to Congress and explained it to us 
and the American people.
    The one thing I really wish that we had, and I wish the 
President would explain to us, is what the ultimate goal is, 
other than the intermediate goal that you just described, 
stopping the rush to Benghazi--what the goal is after Qadhafi 
leaves and what the responsibility of the United States, as 
part of a coalition or individually, to engage in nation-
building or other efforts there. It all seems extremely open-
ended to me. But, now it's started, and it's going to be 
decided, as you suggest, in part by things beyond our control.
    Secretary Gates. I would say it still remains to be dealt 
with. But, I think that the last thing this country needs is 
another enterprise in nation-building. Again, this is an area 
where--one of the reasons we acted was because of the urgency 
that our allies felt--the British, the French, and the 
Italians--as they contemplated the prospect of significant 
migration out of Libya to their shores. They really did 
consider Libya, itself, to be in their vital interest and--
along with the unprecedented action of the Arab League.
    So, my view is that the future of Libya--the United States 
ought not take responsibility for that, frankly. I think that 
there are other countries, both in the region and our allies in 
Europe, who can participate in the effort, particularly with 
nonlethal aid, to try and help the development of Libya. I just 
don't think we need to take on another one.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Secretary Gates, Admiral Mullen, thank you for being here 
this afternoon.
    Secretary Gates, you indicated that our capabilities will 
continue to be on standby as we have turned over the strike 
sorties and the embargo to other of our allies. One concern 
that I have--and I think it's been reflected here by others--is 
that a prolonged presence in Libya will fall, ultimately, on 
the United States to continue to shoulder the burden of the 
military effort there. So, do you have confidence that our 
European and Arab allies in this effort will be able to sustain 
their involvement over a long period of time?
    Secretary Gates. They certainly have made that commitment, 
and we will see.
    Senator Shaheen. And----
    Secretary Gates. But, I would say this, and particularly 
looking at what they have done in Afghanistan, from the British 
to others. They thought they were signing up, probably, for a 
peacekeeping mission, back in the mid-2000s, and at Riga. They 
have found themselves in years of combat now, and they have 
certainly stepped up to the plate there, and been able to 
sustain an effort.
    Senator Shaheen. Are we at all concerned that a prolonged 
conflict, with our European allies bearing a significant share 
of that burden, will affect their willingness to continue to 
support our--the efforts in Afghanistan?
    Secretary Gates. There has been no indication of that at 
this point.
    Senator Shaheen. You indicated that, and we know, that both 
the UAE and Qatar are part of this effort. Are we talking to 
other Arab countries about their providing assistance for 
military involvement, in terms of planes and flights, or for 
helping to provide cost--coverage for the costs of the effort?
    Secretary Gates. We haven't talked to them about covering 
the costs. But, we continue to talk to a lot of Arab countries. 
Frankly, while there are only a couple that actually have 
planes in the fight, there are a number who are providing 
support in terms of over-flights, in terms of landing rights, 
and a variety of other things that are actually necessary for 
the success of the mission.
    Senator Shaheen. Are there any other of our allies who are 
not involved, either with military equipment or as part of the 
military effort, who have suggested they might be willing to 
help with the contributions to the cost?
    Secretary Gates. No.
    Senator Shaheen.--of the effort?
    Admiral Stavridis, when he was here, has said that our 
intelligence is showing--I think he put it, ``flickers of 
potential ties to al Qaeda and Hezbollah within some of the 
rebel forces.'' Do we have concerns about that? Are we 
confident that the rebels don't have connections to al Qaeda or 
Hezbollah or other terrorist groups that we might be concerned 
about?
    Admiral Mullen. It's been an area of great focus. We just 
haven't seen anything other than what I would call aspirational 
from al Qaeda leadership in that regard. They are--I think this 
has caught them somewhat flat-footed, as well. That doesn't 
mean that we're not on guard for that or that they might not--
in fact, I do think they will try to take advantage of it. We 
just haven't seen anything to date.
    Secretary Gates. One of the things that Qadhafi is doing, 
though, is, in his information operations, he is trying to gen 
up the narrative that the opposition is, in fact, led by al 
Qaeda. So, one of the things that's making it a little 
difficult is, he broadcasts, all the time, that al Qaeda is 
involved and al Qaeda's doing this and that. So, we just have 
to be aware that he's using this in his own propaganda.
    Senator Shaheen. Have we been successful with efforts to 
jam the communications from Qadhafi?
    Admiral Mullen. I think we struggled a little bit, early 
on, because we were at sea, we were further out. Once the 
Integrated Air Defense System went down, we were actually able 
to move capability over Libya. We have been more successful, 
but I wouldn't characterize it as completely successful or 100 
percent, in terms of the ability to eliminate his broadcast 
capability.
    Senator Shaheen. Thank you.
    My time is expired.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for your service to our country.
    I don't really know where to begin, because I'm more 
depressed than I ever thought I would be, after listening to 
the plan. But, we have to move forward, and we will. I'm 
hopeful, and pray, that Qadhafi does leave.
    Let's start with the idea of al Qaeda taking over Libya. I 
may be wrong, but I'm just not overly worried about that. I 
just don't believe that all these people have risen up against 
Qadhafi because he was not tough enough or that he wasn't 
enough like al Qaeda. Do either one of you believe the Libyan 
people would stand for an al Qaeda-led Libya?
    Secretary Gates. There is absolutely no evidence to support 
that.
    Admiral Mullen. No, I don't.
    Senator Graham. I mean, it makes no common sense, does it, 
that they would tolerate----
    Secretary Gates. I mean, the reality is that fires we have 
faced in Afghanistan and some al Qaeda members have come from 
Libya----
    Senator Graham. That's right.
    Secretary Gates.--particularly eastern Libya. But, that's a 
different story than the people of Libya wanting al Qaeda.
    Senator Graham. Right.
    Secretary Gates. The real power in Libya is in the hands of 
these tribes. And even Qadhafi realizes that.
    Senator Graham. Sure.
    Secretary Gates. I just don't understand how it would be 
possible for these tribes to want to cede any of that authority 
to some outside crowd like al Qaeda.
    Senator Graham. Mr. Secretary, the truth is that there's 
just no real evidence that the people of Libya--the body of the 
people of Libya really want to embrace al Qaeda, that I've 
seen.
    Secretary Gates. No, sir.
    Senator Graham. Okay.
    So, people, on our side particularly, talk about the cost 
of this operation--the cost of a Tomahawk missile and how much 
it costs America to be engaged in taking Qadhafi down. But, if 
you looked at a balance sheet of what it costs to take him out, 
versus the cost to our country and the world if he came back 
into power, what would be the cost to our country, and to the 
Mid-East as a whole, if Qadhafi were able to survive? What 
would that mean to us?
    Secretary Gates. I think that if he were--the assessment 
from the intelligence folks, and my own view, is that if he 
survives and somehow wiggles out from under the pressure that 
he's under right now, there is no question in my mind, first, 
that he will take terrible revenge on the people of Libya and 
anybody who has dared to oppose him or that he even thinks may 
have opposed him. Second, I think that he has a long history of 
supporting terrorist groups. I think that--we all remember Pan 
Am 103, and so, I think that the risk of him generating his own 
revenge, if you will, to the extent that he possibly can, is a 
very real possibility.
    Senator Graham. So, the cost to our country and the Mid-
East as a whole would be greater if he survived than if we took 
him out. Do you agree with that?
    Secretary Gates. I think it would be an ongoing danger.
    Senator Graham. Do you agree with that, Admiral Mullen?
    Admiral Mullen. I do. I mean, one of the actions we've 
taken is to freeze over $34 billion----
    Senator Graham. Right.
    Admiral Mullen.--that----
    Senator Graham. That could be used----
    Admiral Mullen.--he has----
    Senator Graham. Right.
    Admiral Mullen.--that is not planned on being used for the 
Libyan people, for example. And that's just an indication of 
the scope----
    Senator Graham. Right.
    Admiral Mullen.--and the potential cost, in terms of the 
question that you asked and what the balance would be.
    Senator Graham. I've been wrestling with myself about how 
to approach both of you, because I admire you so much, to 
whether I should make a joke about this; that when we pushed 
for a no-fly zone, we didn't mean our people. And the idea that 
the AC-130s and the A-10s and American air power is grounded, 
unless the place goes to hell, is just so unnerving I can't 
express it adequately.
    The only thing I would ask is, please reconsider that, 
because if you don't, you have some friends up here who 
disagree with you about tactics, but we do see the need to get 
rid of this guy. There's probably going to be a vote soon in 
Congress about whether or not we support this policy. Senator 
Levin is working on authorization to use force. And I believe 
it is inherent within the Commander in Chief's ability, under 
our Constitution, to do what he did. And I think you're on 
solid legal ground with the War Powers Act. But, you need to 
come here.
    Now, I'm telling both of you, as friends, that if something 
doesn't become a little clearer and a little more forceful and 
a little more decisive, it's going to be very difficult to get 
an authorization to approve the plan as it is. Could you just 
comment, Secretary Gates, would it be helpful if Congress 
blessed this operation?
    Secretary Gates. Yes, sir. As several have said--Secretary 
Clinton and, I think, the President--we would welcome 
congressional support.
    Senator Graham. What would happen if we rejected the 
authorization, as a Congress, if we voted it down because we're 
not confident that it will work? What kind of signal would that 
send?
    Secretary Gates. It would obviously send an extraordinarily 
negative signal to our allies. It would certainly be 
encouraging to Qadhafi.
    Senator Graham. It would be a disaster, I think.
    One last comment, and I won't go over my time. Is Qadhafi 
the legitimate leader of the Libyan people, in your eyes, 
legally? If he's not, would it be unlawful for some nation, 
including ours, to drop a bomb on him to end this thing?
    Secretary Gates. President Reagan tried that.
    Senator Graham. That doesn't mean we shouldn't try again. I 
mean, I'm asking this in all seriousness. I don't believe this 
man is the legitimate leader of the Libyan people. I believe 
he's an international terrorist and an unlawful enemy 
combatant. Then we're within our bounds, as a nation, and our 
coalition partners, to take the fight to him and his cadre of 
supporters. Is that on the table, or not?
    Secretary Gates. I don't think so, because I think it would 
probably break the coalition.
    Senator Graham. Who would be mad at us if we dropped a bomb 
on Qadhafi? And why would they be mad?
    Secretary Gates. I think that certainly some of our 
European allies have a different view on the idea of----
    Senator Graham. Is there anybody in Europe who would be 
upset if Qadhafi were killed in this engagement?
    Secretary Gates. I don't know.
    Chairman Levin. Thank you, Senator Graham.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    And thank you, both of you, gentlemen, for your excellent 
work here.
    Obviously, following up Senator Graham, I, too, definitely 
agree that General Qadhafi needs to be removed from power. He 
needs to step down. But, in light of that, I am very concerned 
about how difficult that is. What else can be done, without 
ground forces, transitioning now to NATO, to be sure, from a 
political and economic factor, that we can help along those 
lines?
    Secretary Gates. I think that there are still some 
additional measures that can be taken, in terms of seizing 
Libyan assets. We've taken action against the assets here in 
the United States that the chairman referred to. I think there 
are other assets in Europe and elsewhere that probably could be 
seized, in terms of denying him access.
    Senator Hagan. Are those being sought after right now?
    Secretary Gates. Yes.
    I think that the question of what kind of assistance to 
provide to the opposition is clearly the next step, in terms of 
nonlethal or weapons, and so on. I think, kind of, all the 
members of the coalition are thinking about that at this point. 
But, as with our Government, no decisions have been made.
    Senator Hagan. Okay. Speaking of cost, as we transition to 
NATO assuming command and control of all the elements of this 
mission, there continue to be uncertainties regarding the 
costs, the resources, the duration, and the nature of our 
military conflict. According to the DOD's controller's office, 
currently the costs have been about $550 million, most of those 
from munitions and aircraft. It appears that it would cost 
about $40 million a month, assuming no added munitions costs.
    But, we obviously know that we have 100,000 service men and 
women in Afghanistan. I would just want to be sure that we're--
I fully support this, but want to be sure that we're not 
distracted from that mission. Can you discuss the types of 
resources and support that the United States will provide NATO 
for the operations in Libya, and how we can be sure that 
supplying those capabilities and resources will not distract 
from those assets that are needed in Afghanistan?
    Admiral Mullen. We've moved a squadron of electronic attack 
jets from Iraq into the Mediterranean theater to support this. 
We've moved one command-and-control aircraft that we don't 
consider--that is, from my perspective, more critical in the 
Med--or, in the Mediterranean theater than in Afghanistan. And 
that's been--that's sort of been the limit of what we've done 
with respect to any assets out of CENTCOM moved into this 
theater.
    We don't expect--so, I don't see any long-term significant 
effects, particularly in the areas that Afghanistan seeks more 
resources, the areas of intelligence, reconnaissance--
surveillance and reconnaissance. We're going to add assets over 
there this summer, fairly significant assets. I suspect the 
Secretary is about to say that from reprogramming initiatives 
that we think are critical, where we can--he's led the effort 
to make those assets available for the fighting season, this 
season, in Afghanistan. So, I haven't seen any kind of 
significant impact on resourcing Afghanistan or Iraq, anything 
of substance, based on what's going on in Libya.
    Secretary Gates. I'd like to just add one more thing, 
because in response to some of the comments from Senator McCain 
and others. I acknowledge that I am preoccupied with avoiding 
mission creep and avoiding having an open-ended, very large-
scale American commitment, in this respect. We know about 
Afghanistan. We know about Iraq. What people haven't realized 
is, we have 19 ships and 18,000 men and women in uniform 
helping on Japanese relief. We are in serious budget trouble. 
The ongoing continuing resolution (CR) and significant budget 
cuts, at a time when we are asked to do so much, I think brings 
this issue home. Frankly, I need help from Congress. DOD needs 
help from Congress. If we're going to do all these things, we 
need the resources to do them. Under this CR, we're canceling 
ship deployments because we don't have the money to pay for 
them. So, trying to do all these things, and then taking on 
another major commitment that is potentially significant in 
scope, I think is--is a very great worry for me. It's one of 
the reasons why I've been so adamant about keeping the nature 
of our engagement in this as limited as possible, because there 
are others who can fulfill nearly all of the role.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I wish that Senator Graham were still here, because I see 
the issue of congressional authorization rather differently. I 
remember the many weeks we spent being briefed and debating, 
before we went into Iraq. And I believe that Resolution should 
have come before any military action. I'm not going to ask 
either of you to comment on that, because that's really the 
President's call and not necessarily yours.
    I do want to say, Secretary Gates, that I am so aware of 
the terrible problems that the Pentagon, operating under a 
short-term CR, is creating. I think Congress has been 
completely irresponsible to not make the DOD appropriations 
bill our highest priority. We're in the midst of three wars 
now. Yet, we haven't finished the work from last year for DOD. 
It's going to end up costing us way more than it otherwise 
would. To make that point, I keep offering the DOD 
appropriations bill as an amendment to all the bills that have 
been on the floor.
    That's a different subject, but it is related to the issue 
that you raised about avoiding mission creep. And I'm glad that 
you're so focused on that issue. I'm concerned to hear the 
testimony from the Air Force Chief of Staff, General Schwartz, 
earlier this month, when he said that a no-fly zone, alone, was 
likely going to be insufficient to turn the momentum in Libya. 
And, indeed, it seems each day we see a turn of--or a change in 
fortunes among the rebel forces. So, that worries me, because 
that looks like we're engaged in an operation, even if it's in 
a supporting role, that's going to drag on without resolution 
forever, unless Qadhafi is somehow removed.
    The administration has said repeatedly that the removal of 
Qadhafi is not a military objective, it's a political 
objective. In response to Senator Graham, and it was a question 
I was going to ask you, is: Are we trying to kill him? Or, are 
we or our allies trying to kill him? If we're not trying to do 
that, are we trying to arrange for him to go into exile and 
have a soft landing, with no further consequences? Or are we 
going to try to get him out of Libya and have him tried by the 
International Criminal Court, which has been mentioned? If he 
knows that that's the consequence, he's never going to leave 
voluntarily.
    So, if getting Colonel Qadhafi out of Libya is an 
objective, how are we going to accomplish that, and how are we 
going to bring this to closure? I just don't see how this ends.
    Secretary Gates. I mean, there are several alternatives. 
One is that a member of his own family kills him, or one of his 
inner circle kills him; or the military fractures; or the 
opposition, with the degradation of Qadhafi's military 
capabilities, rises up again and is successful, because so much 
of his military has been destroyed.
    I think that General Schwartz was completely accurate when 
he said that a no-fly zone alone would not be sufficient to get 
him out of power or to meet our goals. But, I think that, as 
part of the humanitarian mission, the degradation of his 
military forces does add something--add a completely--a 
significant and different dimension to the no-fly zone, so it's 
not just a no-fly zone alone.
    I would just make one observation that nobody in this 
hearing has mentioned. There have been a lot of concerns 
expressed about the consultation with Congress. But, in its own 
way, Congress consulted with the President, and particularly 
this body, that unanimously, in a Resolution, called for the 
imposition of no-fly zone.
    Senator Collins. Well, if you look at that Resolution, it 
is very limited in what it calls for. But that's a debate for 
another round or another day.
    Thank you.
    Chairman Levin. Thank you very much, Senator Collins.
    We're trying to get the actual wording of that Resolution, 
by the way. We think it may have been calling on you to 
``consider.'' But, in any event, we'll get the actual wording 
of that. But, I think it's also true, in fairness, that there 
was a great urgency here; there was a catastrophe in the works 
here, a slaughter within perhaps hours; and that we were on 
recess, and that the President did actually consult with the 
leadership of Congress. So, I think all of those facts also 
need to be part of the record, regardless of the whether you're 
technically correct about the wording of the Resolution or not.
    Senator Collins. Mr. Chairman?
    Chairman Levin. I'm sorry. You have----
    Senator Collins. I actually now have it.
    Chairman Levin. I always could count on you. [Laughter.]
    Senator Collins has the facts. She always does.
    Senator Collins. Because I think this is an important 
point, because, frankly, if it had been a Resolution 
authorizing the use of force, I probably would have voted 
against it. But, instead it's a resolution that applauds the 
courage of the Libyan people, strongly condemns the violations 
of human rights, calls on Qadhafi to desist, welcomes the 
unanimous vote of the United Nations Security Council, urges 
the regime to abide by it.
    This is the only part that's even tangentially on this 
issue. It said it urges the United Nations Security Council to 
take such further actions as may be necessary to protect 
civilians in Libya from attack, including the ``possible'' 
imposition of a no-fly zone over Libyan territory. So, I think 
that's pretty weak language, in terms of authorizing the United 
States to----
    Secretary Gates. I wasn't claiming, for a second, that the 
Resolution ``authorized'' anything. But, it certainly was a 
manifestation of the wish and the view of the United States 
Senate on this issue.
    Chairman Levin. Thank you.
    We will now turn to Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join in thanking you for being here today and 
giving us the benefit of your thinking on issues that I suspect 
you have been wrestling long and hard with. I don't think we've 
asked any questions that haven't woken you up in the middle of 
the night or kept you up late at night. And so, I want to thank 
you for sharing your views with us.
    I think I want to go to a point that Secretary Gates made 
earlier. Can we accomplish any kind of regime change here, 
unless the opposition receives what you've identified as the 
main defect in their fighting capability, which is the absence 
of training and command and control? Or, to put it a different 
way, doesn't one of the NATO partners, or one of the Arab 
countries, have to be there to provide that kind of capability 
that they're missing now?
    Secretary Gates. My view, Senator, is sort of the high 
point of the uprisings all across the country, people either 
when they rose up, either turned Qadhafi's security services, 
or elements of the military, to their side or were able to 
chase them out of their towns. The only way Qadhafi has been 
able to recapture control of most of his country is that, until 
we started flying our air sorties and strike missions, he was 
able to gather the loyal forces of his regime and, one by one, 
put those cities down by using military force. Now, if that 
military force is dramatically degraded over a period of time, 
then it seems to me that you have the potential for these 
people to rise again, and he will not be able to put them down, 
because he won't have the military capability to do it.
    So, I think the training and the cohesion and the 
organization are all things that, clearly, the rebels need. 
But, I don't think that they can't win without it.
    Senator Blumenthal. Would you agree, Admiral?
    Admiral Mullen. I do.
    Senator Blumenthal. Because I am struck by the public 
reports of the retreating rebels, which make it appear, at 
least, that they really need, as a precondition of ousting 
Qadhafi, the kind of training and internal command and control; 
and indeed, of potentially governing in the future, some 
cohesion in that fighting force to maintain some degree of 
civilian control even in the country. And I would suggest that 
a stalemate is, in some sense, a potential humanitarian crisis 
if it leads either to chaos or even to Qadhafi's continued 
control over a part of the country where he is able to massacre 
and slaughter his people, as he's done for more than 40 years.
    Is there any consideration to the United States providing 
the kind of air support that Senator McCain suggested, through 
the AC-130s and the A-10s?
    Admiral Mullen. Again, those planes actually are available 
today and for the next couple of days, and we had planned that. 
So, they're currently assigned to NATO. After April 2, there 
will be U.S. aircraft--strike aircraft available to the NATO 
commander, in support, should he need that--ask for that and 
need it. Again, this has been the focus of discussions over 
many days. The NATO commander is aware of that. That said, if 
he needs it, he'd have to ask for it, and it would come back 
here. The design is to have a package on alert, on standby, to 
prevent any kind of overwhelming effort on the part of--which 
would result in further massacre of Libyan citizens--on a very 
short notice, to the NATO commander. That's out into the 
future.
    Senator Blumenthal. So, those assets would be available 
if----
    Admiral Mullen. Right. They just would not----
    Senator Blumenthal.--the NATO commander----
    Admiral Mullen.--they just would not be participating on a 
day-to-day basis.
    Senator Blumenthal. Would that be true also of resources or 
assets that might support both training and command and control 
for the rebels in Libya?
    Admiral Mullen. Again, the decision to do that has not been 
made, in terms of support to the rebels. There are many 
countries, I think, who have the capability to do this. As a 
part of a coalition, I would certainly hope that, as countries 
make that decision, that they would do that. We just haven't 
made that decision at this point.
    Senator Blumenthal. Thank you.
    My time is expired, but I would just like to say that I've 
supported this policy, insofar as it has, in fact, stopped the 
massacre or the humanitarian crisis that might have occurred in 
Benghazi, and also prevented the destabilization of other parts 
of North Africa. And I think we're debating, here, as I don't 
need to tell you, the means, not the ends. I think we're united 
in your efforts and the President's efforts to remove Qadhafi. 
And these problems are exceedingly difficult for the American 
people to understand. And your being here, I think, helps to 
explain to them what's at stake here.
    Thank you.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I remember, after the failed attempt in Iran to rescue the 
hostages, a British general or expert in military said, ``A 
good plan can be foiled by bad luck, but a plan that depends on 
good luck is a bad plan.'' I just don't know what category this 
operation is in. But, there's so much vagary in it, in how it 
will be conducted and how it might end, it seems to me an awful 
lot like we're hoping somehow good luck will occur. And, in 
warfare and in military activities, it often doesn't.
    I want to get one thing very clear. From your conversation 
with Senator Lieberman, it seemed to me that--I believe, 
Admiral Mullen, you indicated there was a lack of critical 
mass, perhaps, in the rebel forces--or maybe that was Secretary 
Gates--and that the dilemma was, as expressed by Senator 
Lieberman, that, under the circumstances, it appears they are 
not able to be successful, to win, without substantial allied 
support. What is the most effective support? I think it's quite 
clear that was the A-10s, the AC-130 that have be utilized.
    Now, Admiral Mullen, as I understand it, the A-10s and AC-
130s that provided close-air ground support, the powerful 
antipersonnel firepower that they contain, are off the 
battlefield at this moment. Is that right?
    Admiral Mullen. They are still available to the----
    Senator Sessions. No, no, no.
    Admiral Mullen.--NATO commander.
    Senator Sessions. You've pulled them off. They're not 
flying. There's no----
    Admiral Mullen. No, I haven't pulled them off. I don't know 
if they're flying today. They're available to fly today. That 
will be the case for a couple more days. After that, they won't 
be available, unless it's in this standby mode----
    Senator Sessions. Okay.
    Admiral Mullen.--that I described here.
    Senator Sessions. All right.
    Admiral Mullen. But, I would also say, Senator Sessions, 
there was plenty of action, plenty of support, much of which 
was provided by allied aircraft, before the AC-130s and the A-
10s showed up. They didn't show up at the beginning of this. 
So, I don't discount the capability that those countries 
provide, as well.
    Senator Sessions. I'll ask a military opinion. The rebel 
forces are in defensive situation and a spreadout Qadhafi 
military is attacking them. Would not the A-10s provide a 
powerful balance on the battlefield?
    Admiral Mullen. The A-10s and the AC-130s are very, very 
powerful weapon systems.
    Senator Sessions. It's just odd that--all right. So, is 
there any reluctance, anywhere in this coalition, that we 
should not use the AC-130s or A-10s?
    Admiral Mullen. When they're available, no. But we are--
over the course of the next couple days, we are not going to 
participate in the striking mission--striking part of this 
mission, which would include the A-10s and the AC-130s.
    Senator Sessions. Now, we've been doing that. But, now that 
the rebel forces are in retreat, as Senator McCain 
acknowledged, or noted, it's a unilateral U.S. decision to 
cease to make those assets available to the situation unless we 
have a specific request from the NATO leadership? Is that the 
policy?
    Admiral Mullen. It is.
    Senator Sessions. Do you think that could have a 
discouraging effect on the rebel forces?
    Admiral Mullen. Again, I worked this pretty hard with the 
previous commander, General Ham, in terms of his assessment of 
what the coalition capability--allied capability is. It was, 
and he was confident that it could be sustained at the 
necessary levels to support the opposition.
    Senator Sessions. It could be sustained----
    Admiral Mullen. What has inhibited us, more than anything 
else in the last 3 days, has been weather. It has not been 
airplanes.
    Senator Sessions. Let's go beyond the 2 days you say they 
might still be available, here.
    Secretary Gates, in your written statement that you 
provided for us, you say that, ``Going forward, the U.S. 
military will provide capabilities that others cannot provide, 
either in kind or in scale, such as electronic warfare, aerial 
refueling, lift, search and rescue, and intelligence, 
surveillance, and reconnaissance support.'' I do not see, in 
that list, close air support. Did you intentionally desire to 
leave that out?
    Secretary Gates. Yes.
    Senator Sessions. So, the military capabilities that we 
intend to provide, after the next 2 days, would not include the 
close air support of A-10s and AC-130s.
    Secretary Gates. That's right. We would not be 
participating in the strike missions.
    Senator Sessions. But, the NATO missions, Admiral Mullen, 
as Secretary Gates said in his statement, is a limited one. It 
will maintain pressure on Qadhafi's remaining forces to prevent 
attacks on civilians, enforce no-fly zones, an arms embargo, 
and provide humanitarian relief. Does that include, in your 
view, close air support attacking actual Qadhafi forces from 
the air, wherever they are found?
    Admiral Mullen. It does. The countries who are committed to 
that are those who have been participating in that already, 
outside our capability, which we will no longer add to that 
mission or have executing that mission. So, there'll be plenty 
of strike capability available to NATO to prosecute that 
mission.
    Senator Sessions. Plenty, but not perhaps the most 
effective capability, the powerful A-10 aircraft.
    Admiral Mullen. Sir, they will not be participating after 
the 2nd.
    Senator Sessions. That's troubling.
    Thank you, Mr. Chairman. My time has passed.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    And thank you, Secretary Gates and Admiral Mullen. I know 
you've been here a long time and you've been very patient.
    So, I don't think anyone disagrees that Qadhafi is a bad 
character, has a lot of issues that we want to deal with. But, 
I felt some frustration, Secretary Gates, and it's an issue 
that I'm concerned about, and that's the monetary cost here, 
and the resource cost, both on the CR, in a broader sense of 
DOD, but also in this specific mission, how you have to 
accommodate for this. So, let me make some points on the 
dollars. Make sure I'm not off here; make sure we're on the 
same page.
    My understanding is, so far we've allocated or expended 
$550 to $560 million, give or take, in that range, and that it 
is estimated, before this fiscal year is out, the 2011 fiscal 
year that we're in now, that it may be go to $700 to $800 
million. Is that a fair--or am I low?
    Secretary Gates. Our calculation of the cost, as of last 
Monday, was $550 million. At the ramped down level of support, 
the cost--the run rate per month is about $40 million. That's 
our estimate.
    Senator Begich. Does that include all military and 
humanitarian, or just the DOD component of this and not the 
State Department component?
    Secretary Gates. That's just the DOD component.
    Senator Begich. Do you know, has there been a number on the 
State Department's component here?
    Secretary Gates. No. One other thing I'd just like to 
mention, in terms of these costs that need to be covered. I 
mentioned earlier, we have 19 ships and 18,000 men and women in 
uniform in Japan.
    Senator Begich. You're----
    Secretary Gates. There are costs----
    Senator Begich.--those have to be covered also.
    Secretary Gates.--associated with that, that we need to 
deal with, as well.
    Senator Begich. Right. I'm going to focus on Libya, only 
because that's the conversation. But I agree with you, just as 
we had to deal with Haiti, and the list goes on and on.
    How are you paying for this? If I read what I'm reading, 
that it is rearranging kind of the deck of--the money, moving 
and shifting it. But, whatever you're shifting it from, we have 
to replenish that, right? I mean, I know some of the weapons, 
the Tomahawks, maybe we have less inventory later. What's the--
how are we going to address that?
    Secretary Gates. We're in that discussion with the White 
House and the Office of Management and Budget (OMB) right now. 
But, it is my view that DOD cannot just eat that cost. Now, 
there are some ways of looking at the overseas contingency 
operation funding, where we may be able to do something. But, 
again, I'm just in the beginning of conversations with the 
White House and the OMB on that.
    Senator Begich. But, do you think that, in this contingency 
resource that you have, that the dollars--the amount that it 
may be by the end of this fiscal year can be covered, or do you 
think--you're going to need new resources at some point, some 
amount. Am I wrong about that?
    Secretary Gates. I don't----
    Senator Begich. The reason I'm----
    Secretary Gates. I don't see----
    Senator Begich.--asking is, I'm----
    Secretary Gates.--the top line of either the OCO or the 
fiscal year 2011 budget being changed by this.
    Senator Begich. At all.
    Secretary Gates. No.
    Senator Begich. Let me ask you a different way. A comment I 
would have, then, is, does that mean that was extra money? I 
know the answer is no to that. So, does that mean there's 
some----
    Secretary Gates. We'll have to make internal tradeoffs, 
Senator.
    Senator Begich. Okay. What are those kind of tradeoffs?
    Secretary Gates. We haven't gone there yet.
    Senator Begich. Okay.
    Secretary Gates. That's the discussion that I just said 
we're having with OMB----
    Senator Begich. Okay.
    Secretary Gates.--and the White House.
    Senator Begich. I don't want you to take this as hostile at 
all. I'm just saying, I'm new to this. I just know we were in 
Iraq, Afghanistan; no one talked about the money. Now, it's 
trillions of dollars. That hurts your budget and it hurts the 
Veterans' Affairs (VA) budget.
    I know how everyone wants to talk about, as we just heard, 
the AC-130s and the A-10s. Admiral, I appreciate your comment. 
Our coalition partners have the capacity, maybe not as superior 
as our capacity, but they're doing the job that we need them to 
do. I think that's great.
    But, all this costs money. My issue is, what's the 
tradeoff? Understanding that Qadhafi has to go; he is a bad 
character. I can name you 10 other bad characters in the world 
that we should be taking out. But, we are where we are. I'm 
trying to figure this out. My personal opinion would be, the 
Arab League needs to pony up some money to offset these costs. 
You know? But, that's me. We cannot shoulder these costs, with 
a downward turn on our dollars available, for everything across 
the board.
    I truly believe the Senate does not do a very good 
oversight on budgetary processes until after the fact, and then 
it's too late. We're in the middle of it and I'm asking the 
questions. So, I appreciate what you're saying. I just want to 
make sure it's not so far down the line, then you all come in 
and say, ``Well, we need a half a billion dollars, because''--I 
want to mentally prepare for this and know what we're trading 
off, because somewhere we're trading off something. It's 
frustrating to me.
    I'm supportive of your needs. I have always been here--when 
Afghanistan needed 30,000 more troops, one of the first 
Democrats to step up and say, ``You get them, because you need 
them,'' because we were under resourced in that operation when 
I first came here. So, I'm frustrated, like you, because no 
one--not--I think there was maybe two questions here on the 
monetary elements. It's a discussion that we have to have.
    Most of their income, in Libya, comes from oil, period. 
We're probably not going to have any agreement for repayment, 
if we move this country to a better situation. We're going to 
be, again, carrying the load.
    So, I'm frustrated. I heard frustration from you. I'm 
frustrated. I just want to make sure we do it right.
    I don't know if you have any comments. My time is up.
    Secretary Gates. I would just say, the Defense 
appropriations bills that are currently under negotiation have 
around $4 billion in unrequested adds. That's where we'll look 
first.
    Senator Begich. That's a fair statement. I appreciate that. 
I'll leave it at that.
    Again, I'm going to support the missions that you all 
decide, from a military perspective. But, I want to make sure 
the resources are there and we're not nickel-and-diming you to 
death. I've already been to subcommittee meetings and I've seen 
it. It's painful to watch it. I'm just trying to figure out 
what's the right approach here.
    But, I'll end at that. I appreciate it.
    Chairman Levin. Thank you very much, Senator Begich.
    Senator Manchin.
    Senator Manchin. First of all, let me just say that the 
State of West Virginia thanks you all for your service, and we 
have the utmost respect.
    I think where I'm having a problem with the cost is, I 
remember the Gulf War. At the Gulf War, there was a big to-do 
made about that we already had commitment for reimbursement 
before we went in. I'm just giving it to you from my 
perspective, being in our State of West Virginia, listening and 
watching and with all of our Guards people who were 
commissioned to go over. It was something that we felt was a 
win/win for us. We were asked to come help. We went in and we 
helped. We were successful. We did our mission. They paid their 
costs, and we got back out. People didn't feel like they were 
over-obligated or overburdened. So, if we could do it then, and 
we were asked, or we think we were asked, to come in this time, 
or we had the support of the Arab League with NATO--I think 
what we're saying, and I think what Senator Begich is saying, 
could we not make that same deal this time, where they would 
offset the costs for us to come in and assist them?
    Secretary Gates, with all due respect, I know you've said 
that you did not believe that this was in our vital interest. I 
think a lot of West Virginians share your belief with that. 
But, whatever it is, we are where we are. I think, did we not 
get the commitment or buy-in? Or just basically the request to 
come and you all pay your own bill?
    Secretary Gates. First of all, with respect to the Gulf 
War, I was there. I was in the White House when that all took 
place. I can tell you we had no advanced commitment from 
anybody to pay anything.
    Senator Manchin. Okay.
    Secretary Gates. That was all dealt with later. The reality 
is, the bulk of the repayment came from Saudi Arabia and 
Kuwait, that had been the most directly under threat. They 
clearly don't feel that kind of a direct threat today from 
Qadhafi. So, I think getting these guys to shoulder very much, 
if any, of the financial cost is a remote possibility.
    Senator Manchin. So, this--the Gulf States that basically 
feel, if there's a direct threat to them, they--at that time, 
they would make the financial decision to be involved. So, they 
must not think it's a direct threat--Qadhafi. I think that you 
said you did not think that there was a direct threat. But, the 
decision was made that we went in anyway, and we're expending 
a----
    Secretary Gates. The Kuwaitis had already been occupied and 
the----
    Senator Manchin. Yes.
    Secretary Gates.--the Saudis saw Saddam as an immediate 
threat.
    Senator Manchin. I would ask this, and to both of you also. 
Has there been any movement--I know I keep hearing that there 
might be some movement on Qadhafi leaving. Does he want to 
leave? Is there any opportunity for him to be exiled somewhere 
else? How would we approach that, if there was a country 
working with his exile, is that door left open, for him to 
leave?
    Secretary Gates. First of all, we haven't really discussed 
this in detail. It's more the President and the Secretary of 
State. But, my personal view would be that anything that gets 
him out of the country and provides for a change of the regime 
should at least be considered.
    Senator Manchin. So, it's an option.
    Secretary Gates. Yes, sir.
    Senator Manchin. I know everyone's asked you about the time 
element. It looks like there's no way of backing out of that 
thing right now, until he's gone. We're hoping that the NATO 
troops or whoever the Arab States are--will do their job and 
make that happen sooner than later?
    Secretary Gates. We certainly are counting on the coalition 
to sustain the air campaign.
    Senator Manchin. Yes.
    Admiral, maybe you can speak to what strain is there to the 
troops, this third war that we have? I was in Iraq and 
Afghanistan, and saw the finest soldiers I could ever imagine 
to see and anyone in the country has ever seen. But, is it 
going to take a toll on us?
    Admiral Mullen. I think, over the short term, not that 
much. I'd be the first to say that we're stretched pretty thin. 
Secretary Gates spoke earlier, just on the financial side; I 
mean, we're now at a point where we don't have the money this 
year to fund some of the Navy deployments, just because we 
don't have a bill yet.
    Over the long term, I would grow increasingly concerned. 
That said, what we've done, or what we're in the process of 
doing right now, with very specific guidance from the 
President, is, this is a limited military involvement, and from 
a standpoint that I can see the limits right now, with the 
capabilities that we have, that we can sustain those support 
capabilities for a significant period of time without 
substantially adding to the stress on the force.
    Most of the stress on the force is on the ground. 
Obviously, this doesn't involve ground forces. So, at least, 
certainly as this was initiated and where we are right now, I 
think we're okay. But, it is a concern.
    Senator Manchin. Again, I say thank you for your service 
and thank you for the tough job you have.
    Thank you, sir.
    Chairman Levin. Thank you, Senator Manchin.
    The question of the strike missions and the decision not to 
participate, after the next couple days, on the strike 
missions. You've testified that NATO has great strike 
capability, and I want to just be sure of one thing. That is, 
from your perspective, Admiral Mullen, that decision, that 
policy of ours, that we've worked out with NATO, does that have 
your own personal support, that we not participate, unless we 
are requested, on a standby basis--you've gone through that--
and unless that standby request is then approved by the 
civilian leadership of this country. Do you support that 
policy?
    Admiral Mullen. I'm very comfortable with the guidance that 
I've gotten from the President and the mission to be executed, 
as I've described it, as the Secretary's described it, and as 
you just described it.
    Chairman Levin. All right. So, that is something that has 
your personal support.
    Admiral Mullen. Right.
    Chairman Levin. Thank you.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    Chairman Levin. You came just in time.
    Senator McCaskill. Thank you. I just finished presiding 
over the Senate and then raced over here.
    Either Secretary Gates or Admiral Mullen, what is the 
governance capability of the rebels? We know their 
shortcomings, in terms of their ability to advance, in terms of 
their military operations, but what about governance? What 
about--do we think the Interim National Council in Benghazi, in 
the east, is able to coordinate the efforts in some of the more 
remote areas of the country?
    Secretary Gates. I think the answer to the second question 
is no. I would say that the governance capability, at this 
point, is limited, if not nonexistent.
    Senator McCaskill. So, assuming that we're going to be 
optimistic here and Qadhafi leaves power quickly, what have our 
allies and what has NATO talked about in terms of what happens 
in the interim if there is no governance capability? Are there 
any plans or any discussions about what would happen in Libya? 
Or is this one of those situations where we will, in fact, sit 
back and watch to see what develops?
    Secretary Gates. Secretary Clinton has carried the 
principal burden of negotiating with our allies and coalition 
partners. Whether that was discussed in the London conference a 
few days ago, I just don't know.
    Senator McCaskill. Okay.
    Egypt. I know, with what we are committed to--and I agree 
with the assessments that have been made by our leadership in 
regards to Libya. I worry that we are taking our eye off the 
ball on Egypt, to some extent. I wondered, both of you, do you 
sense that, ``So goes Egypt, so goes the rest of the region''? 
What are your feelings right now about the democracy that is 
trying to be born in Egypt?
    Secretary Gates. First of all, I would say quite the 
contrary. We have, not only not taken our eye off the ball, 
we're paying a lot of attention to Egypt. I was there last 
week. Secretary Clinton was there the week before that. Admiral 
Mullen and I are in regular contact with our counterparts. I 
came away from my visit, and the decisions that have happened 
in the last few days, feeling pretty positive about 
developments there.
    One of the things that we had been concerned about was that 
trying to have elections in June would not give parties, other 
than the old Mubarak party and the Muslim Brotherhood, the 
chance to organize and to prepare. They're a movement, not a 
political party. So, their decision to move--to delay the 
elections until September, I think is actually a very positive 
move, because it will give more political space for those 
groups that are not yet very well organized.
    So, I'm cautiously optimistic that things are headed in the 
right direction. It is absolutely clear, from my conversations 
with Field Marshal Tantawi, that the military wants to shed 
this responsibility as quickly as they responsibly can. They 
seem to be making the right decisions, in terms of the reforms 
that they've put in place, in terms of the elections, and so 
on.
    Admiral Mullen. Frequency of contact is one thing that, as 
the Secretary said, we both do. Also it's not just myself but 
General Mattis is also in constant contact with the military 
leadership there. We're working our way through, given the huge 
challenges that they have, the best way to sustain the really 
good military-to-military relationship we've had, over a long 
period of time, which I think has had a significantly positive 
payoff in the overall crisis in Egypt. We recognize the value 
of that. We're continuing to work that through things like 
exercises and education. We just don't want to see those things 
go by the wayside. From all indications, neither does the 
Egyptian military.
    Secretary Gates. One thing I would add, to address one 
other point that you asked about, is I think that the future of 
Egypt is absolutely critical to our interests in the region. It 
has long been the center of the Arab world, in many ways. So, 
we have a very significant interest in how things go in Egypt.
    Senator McCaskill. I want to say I think that often there 
can be cynicism about the time and resources we spend, in terms 
of building alliances with other militaries around the world. I 
think this is a great example for the American people to take a 
look at. All of the training that we have done, here in this 
country, of Egyptian military leaders, the relationships that 
our military has developed with the Egyptian military over the 
years, clearly that has come into play at this time of crisis, 
and been very important, in terms of our ability to get 
information, and our ability to monitor and make sure that what 
was going on there was, in the long run, going to be healthy 
for our national security interests.
    So, I think this is a good time to remind Americans that 
sometimes the resources we expend on training and even 
equipping our allies across the world come in handy. I think 
this is an example of where it has.
    Admiral Mullen. Ma'am, I agree with you. I certainly 
juxtaposition this with a country I also spend a lot of time 
on, and that's Pakistan, where we've broken that relationship. 
It has cost us dearly to do that. and we're working on renewing 
it through what are very, very difficult times and significant 
challenges. But, those two examples teach us lessons on both 
sides of that coin.
    Senator McCaskill. I thank you both for your leadership in 
this time. I know it's trying. I'm glad that both of you are 
where you are at this moment. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Thank you both very much.
    We came close to keeping a commitment to limit this to 2 
hours. We did the best we could.
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Jeff Sessions
                       congressional notification
    1. Senator Sessions. Secretary Gates, could you please provide 
documentation of the various actions that the Department of Defense 
(DOD) made to notify and inform Congress of its planning and execution 
of missions in support of United Nations Security Resolution 1973 and 
Operation Odyssey Dawn. Please include both member and staff 
informational briefings, meetings, point papers, decision memos, and 
any other pertinent products as well as the dates provided.
    Secretary Gates. On June 15-16, DOD provided a variety of materials 
to Congress documenting DOD communications with Congress about U.S. 
actions in Libya in support of United Nations Security Resolution 1973 
and Operation Odyssey Dawn. A portion of those documents were used to 
inform Congress during the course of the following meetings that 
occurred during March 2011.

         March 1, 2011: DASD Huddleston (ISA/AF) provided an update 
        briefing on the situation in Libya to SASC and SFRC PSMs.
         March 4, 2011: ASD Vershbow (ISA), RADM Rogers (J2), and RADM 
        Tidd (J3) briefed SASC Members on Libya (Levin, McCain, and 
        Sessions attended). They provided an update on Libya, including 
        recent intelligence. They also discussed possible military 
        options, including the mechanics of a no-fly zone.
         March 10, 2011: PDASD McMillan (ISA), MG Leins (J5), and Col 
        Olsen (J3) briefed HASC Chairman McKeon on Libya. The briefing 
        included the latest developments and possible military options 
        for Libya, including the mechanics of a no-fly zone.
         March 17, 2011: PDASD McMillan (ISA), RADM Rogers (J2), RADM 
        Tidd (J3) briefed all-Senators on Libya developments and 
        possible USG and international responses, including potential 
        military options.
         March 17, 2011: RADM Rogers (J2) and RADM Tidd (J3) briefed 
        Senators Levin, McCain, Kerry, and Lieberman. They provided an 
        intelligence update and a briefing on the mechanics of possible 
        military options for Libya.
         March 19, 2011: USDP Flournoy called House and Senate Armed 
        Services Committee Chairmen and Ranking Members to provide an 
        update on Libya Operations. USDP also called Senator Sessions.
         March 19, 2011: ADM Mullen called House and Senate Defense 
        Appropriations Subcommittee Chairmen and Ranking Members to 
        provide an update on Libya operations.
         March 20, 2011: VADM Gortney (Director, JS) briefed Senator 
        Levin on developments in Libya.
         March 22, 2011: RADM Rogers (J2), and RADM Tidd (J3) provided 
        a classified briefing on Libya operations to PSMs of 
        jurisdiction and leadership staff.
         March 22, 2011: RADM Rogers (J2), and RADM Tidd (J3) provided 
        an unclassified briefing on Libya operations. The briefing was 
        open to all Congressional staff.
         March 28, 2011: RADM Rogers (J2), and RADM Tidd (J3) provided 
        a classified briefing to update Congressional staff on Libya 
        operations. All Congressional staff who had a secret clearance 
        were invited to attend.
         March 29, 2011: RADM Rogers (J2) briefed Speaker Boehner on 
        the situation in Libya.
         March 29, 2011: RADM Rogers (J2) and RADM Tidd (J3) briefed 
        Chairman Young and Rep Dicks on Libya.
         March 30, 2011: The Secretary of Defense and the CJCS 
        conducted all-House and all Senate-Members briefings on Libyan 
        operations.
         March 30, 2011: RADM Rogers (J2) briefed SSCI members on 
        Libyan operations.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                    intelligence activities in libya
    2. Senator Vitter. Admiral Mullen, there are reports that our 
intelligence agencies are being used within Libya. I fully support the 
role of these agencies in gathering sensitive and necessary information 
to safeguard the interest of the United States. In addition, I 
understand that intelligence operations are a dangerous business. 
However, in December 2009 a suicide bomber wearing an explosive vest 
killed eight Americans working as U.S. intelligence operatives in 
Forward Operating Base Chapman, Knost Province, Afghanistan, as a 
result of several security failures. The bomber was a ``trusted 
source'' from Jordanian intelligence who was able to murder seven 
people inside an area under U.S. control. My concern is that the 
administration, in an attempt to work within the confines of an 
international coalition's ``limited objectives,'' may be forcing the 
CIA to work in a military capacity and operate outside of the necessary 
security guidelines set forth by the CIA. Have the operatives working 
within Libya been given the necessary tools to accomplish U.S. stated 
objectives without placing the mission at risk?
    Admiral Mullen. DOD does not currently have any intelligence 
personnel working within Libya. U.S. Defense Attache Office (USDAO) 
personnel assigned to the U.S. Embassy in Tripoli departed Libya on 25 
February, 2011. USDAO Tripoli had been open since mid-2006. Currently, 
USDAO Tripoli personnel perform their functions from abroad and have 
the necessary tools to accomplish their assigned mission. Questions 
concerning the presence and activities of other U.S. departments and 
agencies within Libya are best addressed by those organizations 
separately.

    3. Senator Vitter. Admiral Mullen, does the administration have the 
adequate information on who we are working with in Libya, or what the 
people of Libya are advocating beyond the removal of Qadhafi?
    Admiral Mullen. Please refer to enclosed desk note for this 
response.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    [Whereupon, at 4:28 p.m., the commmittee adjourned.]

                                 <all>

</pre></body></html>
